PROOF/CERTIFICATE OF SERVICE IN ACCORDANCE WITH
28 U.S.C. SECTION 1746
I HEREBY DECLARE, PURSUANT TO 28 U.S.C. SECTION 1746, AND
CERTIFY that on March 14, 2020, I caused the foregoing Application to be handdelivered to the Clerk of the United States Supreme Court at 1 First Street, N.E.,
Washington, D.C. 20543 by a third-party commercial carrier for next business day
priority delivery; and, also mailed the foregoing through Canada Post and the United
States Postal Service by first-class mail to the Respondent's legal counsel: Akerman,
LLP at 210 East Park Avenue, Suite 300, Tallahassee, Florida, USA 32301,
Telephone: (850) 224-9634; Attention: Nancy M. Wallace, Esq., and also Michael J.
Larson, Esq.
I DECLARE UNDER PENALTY OF PERJURY UNDER THE LAWS OF THE
UNITED STATES OF AMERICA THAT THE FOREGOING IS TRUE AND
CORRECT.
Executed on: March 13, 2020

7

VIKTORIA BENKOVITCH
Applicant/Petitioner
Appearing Pro Se
44 Cotswold Crescent,
Toronto, Ontario, Canada M2P 1N2
Tel: (786) 223-3979
Email: Benkovitch@hotmail.com

6

